                  The Disaster Recovery Program Has
               Improved, but It Should Be Reported As a
              Material Weakness Due to Limited Resources
                        and Control Weaknesses

                                    March 2005

                       Reference Number: 2005-20-024




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     March 1, 2005


      MEMORANDUM FOR CHIEF INFORMATION OFFICER
                     CHIEF, MISSION ASSURANCE



      FROM:                        Pamela J. Gardiner
                                   Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report - The Disaster Recovery Program Has
                                   Improved, but It Should Be Reported As a Material Weakness
                                   Due to Limited Resources and Control Weaknesses
                                   (Audit # 200420031)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      disaster recovery program. The objective of this review was to provide an overall
      assessment of the IRS’ disaster recovery program.
      In summary, the IRS Commissioner stated, in the IRS Strategic Plan 2005 – 2009,1
      “. . . providing excellent service to taxpayers and enforcing America’s tax laws in a
      balanced manner . . . are equally important priorities.” The means and strategies to
      accomplish the Strategic Plan goals include “Develop, exercise and maintain continuity
      of operations plans, contingency plans and other measures to protect critical
      infrastructure.” During Fiscal Years (FY) 2002 through 2004, IRS management initiated
      and/or completed several actions that demonstrated the increased emphasis on
      emergency management and preparedness, including disaster recovery planning. For
      example, Modernization and Information Technology Services (MITS) organization
      management implemented an inhouse Master File2 disaster recovery capability and
      completed corrective actions on prior audit recommendations. Mission Assurance (MA)
      organization management began coordinating the Business Resumption Strategy and
      Disaster Recovery Strategy development efforts and established the Emergency



      1
       Publication 3744, revised June 2004.
      2
       The IRS database that stores various types of taxpayer account information. The Individual, Business, and
      Employee Plans Master Files were identified as critical business systems.
                                                        2

Management and Preparedness Working Group to help coordinate and facilitate the
development of all IRS emergency preparedness activities.
However, significant disaster recovery program weaknesses continue to be unresolved.
Our analysis of 11 prior Treasury Inspector General for Tax Administration (TIGTA)
audit reports identified recurring disaster recovery program weaknesses, including
modernization systems being placed in production without a disaster recovery
capability, insufficient disaster recovery capacity, roles and responsibilities not being
assigned and employees not being trained, and annual tests not being conducted or not
being effective (see Appendix IV for a list of the 11 reports). We also determined 27 of
44 corrective actions for prior recommendations had not been completed.
Shrinking budgets have limited management’s efforts to correct disaster recovery
problems. The IRS Information Systems and Business Systems Modernization (BSM)
budgets have decreased from 7,466 Full-Time Equivalents (FTE)3 and $1.971 billion in
FY 2003 to 7,385 FTEs (1.1 percent reduction) and $1.958 billion (0.7 percent
reduction, including a 24.4 percent reduction in the BSM budget) in FY 2005.
Since October 2001, MITS organization management has worked to provide resources
to improve disaster recovery capabilities, with limited results. After the terrorist attacks
on September 11, 2001, the Congress approved $13.5 million for the Master File
disaster recovery capability. However, requests for $74.1 million to fund disaster
recovery needs were turned down. For FY 2005, Enterprise Operations office
management requested $16.7 million for Enterprise Computing Center4 mainframe
computer improvements that would ensure disaster recovery capabilities. However,
budget cuts have prevented management from reallocating funds to these items.
The Modernization Disaster Recovery Project has not developed and implemented a
midrange computer system disaster recovery infrastructure although the Modernized
e-File system5 is in production and additional midrange computer systems, such as the
Integrated Financial System6 and Custodial Accounting Project,7 are scheduled to enter
production in FY 2005.
Finally, MITS organization management advised us personnel trained and responsible
for disaster recovery support duties were reassigned to the MA organization in the
October 2003 MA organization realignment, but the MITS organization is still
responsible for the duties. Senior MITS and MA organization managers are working on



3
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FY 2004, 1 FTE was equal to 2,096 staff hours. For FY 2005, 1 FTE is equal to
2,088 hours.
4
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
5
  Develops the modernized web-based platform for filing IRS forms electronically.
6
  Provides the IRS better financial budgeting, planning, tracking, reporting, and management.
7
  Uses a data warehousing approach to provide the IRS detailed taxpayer account information to be used for analysis
and financial reporting.
                                                      3

this issue but, as of August 2004, had not resolved how best to transfer the personnel
resources or work.
In addition, insufficient management oversight has hampered the identification and
resolution of program weaknesses. MA organization management advised us the
Federal Information Security Management Act (FISMA)8 requirements are the focus of
their security program oversight efforts. However, the TIGTA’s FY 2004 FISMA report
to the Department of the Treasury9 stated the IRS Plans of Action and Milestones
(POA&M) do not contain details sufficient to permit oversight and tracking of security
weaknesses. As a result, the current POA&M system weaknesses could not be
analyzed for recurring issues that might indicate systemic problems that should be
elevated to the program weakness level. Insufficient resources and management
oversight increase the risk that the critical systems supporting the IRS Commissioner’s
service and enforcement priorities cannot be timely recovered if a disaster occurs.
To ensure service and enforcement priorities can be met, we recommended the Chief
Information Officer (CIO) report a disaster recovery program material weakness to the
Department of the Treasury and include new and currently underway improvement
activities in the corrective action plan. The CIO should also work with the Chief, MA, to
implement FISMA POA&M procedures to analyze system weaknesses for systemic
problems and elevate them as program-level weaknesses.
Management’s Response: IRS management agreed with our recommendations and will
declare the disaster recovery program a material weakness. IRS management
responded the IRS could recover all vital data for the most mission critical information
technology systems, including the Master File and the Customer Account Data Engine
(CADE).10 They are committed to increasing disaster recovery capabilities based on
available funding and an evaluation of cost and risk factors. The MA organization is
responsible for coordinating the development of an IRS-wide business resumption
strategy. The MITS organization has identified its current disaster recovery and
business resumption strategies, including both data recovery point and recovery time
objectives, for all major systems. The crucial business processes were identified and
prioritized and will be mapped to the specific computing system major applications and
general supporting systems, and a gap analysis will be conducted to identify inadequate
disaster recovery capabilities. IRS management will also coordinate with the
Department of the Treasury and the Office of Management and Budget to request the
necessary funding. In addition, IRS senior leadership established an executive working
group to implement FISMA POA&M procedures. Management’s complete response to
the draft report is included as Appendix V.



8
  E-Government Act of 2002, Pub. L. No. 107-347, Title III, Section 301, 2002.
9
  Treasury Inspector General for Tax Administration Federal Information Security Management Act Report Fiscal
Year 2004, dated September 10, 2004.
10
   The CADE is the foundation for managing taxpayer accounts in the IRS modernization plan. The CADE will
consist of databases and related applications to replace the IRS’ existing Master File processing systems.
                                           4

Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
        The Disaster Recovery Program Has Improved, but It Should Be Reported As
          a Material Weakness Due to Limited Resources and Control Weaknesses




                                                  Table of Contents


Background ............................................................................................... Page 1
Management Increased Emphasis on Emergency Management
and Preparedness, Including Disaster Recovery Planning........................ Page 2
Significant Disaster Recovery Program Weaknesses Continue
to Be Unresolved....................................................................................... Page 4
         Recommendation 1: .......................................................................Page 11
         Recommendation 2: .......................................................................Page 12

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 13
Appendix II – Major Contributors to This Report ....................................... Page 15
Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – Previously Issued Audit Reports Reviewed........................ Page 17
Appendix V – Management’s Response to the Draft Report .................... Page 18
      The Disaster Recovery Program Has Improved, but It Should Be Reported As
        a Material Weakness Due to Limited Resources and Control Weaknesses

                                The Internal Revenue Service (IRS) Commissioner stated,
Background
                                in the IRS Strategic Plan 2005 – 2009,1 “. . . providing
                                excellent service to taxpayers and enforcing America’s tax
                                laws in a balanced manner . . . are equally important
                                priorities.” The Strategic Plan includes the goal “Modernize
                                the IRS through its People, Processes and Technology” and
                                the objective “Ensure the Safety and Security of People,
                                Facilities and Information Systems.” The means and
                                strategies to accomplish this objective include “Develop,
                                exercise and maintain continuity of operations plans,
                                contingency plans and other measures to protect critical
                                infrastructure.” The Strategic Plan states the IRS will
                                implement disaster recovery capabilities for the Computing
                                Centers,2 plans for critical infrastructure assets, and business
                                continuity plans for all mission critical and business
                                essential processes, facilities, and assets.
                                Disaster recovery is an organization’s ability to respond to
                                an interruption in services by implementing a plan to restore
                                critical business functions. Disaster recovery is a subset of
                                interrelated business continuity disciplines including
                                business resumption, occupant emergency planning, and
                                incident management. A disaster recovery plan defines the
                                resources, actions, tasks, and data required to restore
                                information systems in the event of a business interruption.
                                The plan is designed to assist in restoring the business
                                process within the stated disaster recovery goals, thereby
                                minimizing the effects of a major disruption.
                                The Modernization and Information Technology Services
                                (MITS) and Mission Assurance (MA) organizations have
                                disaster recovery responsibilities. The MITS organization is
                                responsible for developing and maintaining disaster
                                recovery plans to support information system contingency
                                and recovery operations. The MA organization is
                                responsible for establishing policies and procedures,
                                providing guidance, and overseeing the implementation of
                                the policies and procedures.



                                1
                                  Publication 3744, revised June 2004.
                                2
                                  IRS Computing Centers support tax processing and information
                                management through a data processing and telecommunications
                                infrastructure.
                                                                                             Page 1
         The Disaster Recovery Program Has Improved, but It Should Be Reported As
           a Material Weakness Due to Limited Resources and Control Weaknesses

                                   During Fiscal Years (FY) 2002 through 2004, we reviewed
                                   several IRS disaster recovery strategies and other disaster
                                   recovery related topics. Appendix IV lists the 11 prior audit
                                   reports reviewed for this review’s overall assessment.
                                   This review was performed in the offices of the Chief
                                   Information Officer (CIO) and Chief, MA, at the IRS
                                   National Headquarters in New Carrollton, Maryland, during
                                   the period June through November 2004. The audit was
                                   conducted in accordance with Government Auditing
                                   Standards. Detailed information on our audit objective,
                                   scope, and methodology is presented in Appendix I. Major
                                   contributors to the report are listed in Appendix II.
                                   Office of Management and Budget (OMB) Circular
Management Increased Emphasis
                                   A-130, Management of Federal Information Resources,
on Emergency Management and
                                   requires Federal Government agencies to provide for
Preparedness, Including Disaster
                                   continuity of support and contingency planning for their
Recovery Planning
                                   general support systems and major applications. The
                                   Internal Revenue Manual (IRM) states senior management
                                   responsibilities, shared among business units, require
                                   coordination, such as allocation of resources and training to
                                   implement business continuity plans, acquisition of alternate
                                   workspace, and development of priorities for restoring
                                   work. In particular, the Associate CIO, Information
                                   Technology Services, is responsible for ensuring
                                   information system resources are adequately protected and
                                   consistent with security policies, standards, and procedures
                                   and for ensuring contingency planning capabilities
                                   (e.g., disaster recovery). The Chief, MA, is responsible for
                                   ensuring all applicable security policies, procedures, and
                                   control techniques are implemented for systems and
                                   processing facilities; evaluating and overseeing all major
                                   information security programs; and managing core security
                                   operations, including existing disaster recovery capabilities.
                                   During FYs 2002 through 2004, IRS management initiated
                                   and/or completed several actions that demonstrated the
                                   increased emphasis on emergency management and
                                   preparedness. For example:
                                      •   The MITS organization received $13.5 million for
                                          antiterrorist spending in January 2002 and


                                                                                          Page 2
The Disaster Recovery Program Has Improved, but It Should Be Reported As
  a Material Weakness Due to Limited Resources and Control Weaknesses

                                   implemented an inhouse Master File3 disaster
                                   recovery capability to address the disaster recovery
                                   material weakness.
                              •    In December 2003, the MA organization began
                                   coordinating the Business Resumption Strategy
                                   (BRS) and Disaster Recovery Strategy (DRS)
                                   development efforts with the MITS organization and
                                   other business units. Each organization is
                                   identifying its BRS and validating the critical
                                   business processes,4 recovery time objectives,5 and
                                   recovery point objectives.6 This information will be
                                   used to set the DRS requirements and priorities for
                                   the MITS organization disaster recovery plans.
                              •    The Chief, MA, issued a memorandum, dated
                                   July 2, 2004, to business operating division
                                   commissioners and support organization chiefs
                                   citing the Commissioner’s priority to enhance the
                                   IRS’ security posture and related emergency
                                   management and preparedness capabilities.
                              •    In July 2004, the Emergency Management and
                                   Preparedness Working Group was established to
                                   help coordinate and facilitate all IRS emergency
                                   preparedness activities, including information
                                   systems contingency and disaster recovery planning.
                              •    Corrective actions for Treasury Inspector General
                                   for Tax Administration (TIGTA) audit
                                   recommendations are being completed. Examples of
                                   corrective actions completed in FYs 2003 and 2004
                                   include:


                          3
                            The IRS database that stores various types of taxpayer account
                          information. The Individual, Business, and Employee Plans Master
                          Files were identified as critical business systems.
                          4
                            Mission critical business processes include processing remittances, tax
                          returns, and tax refunds; administrative and infrastructure critical
                          processes include providing a safe and equipped working environment
                          and processing payroll.
                          5
                            The time needed to recover from a disaster; how long the IRS could
                          afford to be without its information systems.
                          6
                            Describes the age of the data to be restored in the event of a disaster;
                          the amount of data the IRS could afford to lose.
                                                                                            Page 3
        The Disaster Recovery Program Has Improved, but It Should Be Reported As
          a Material Weakness Due to Limited Resources and Control Weaknesses

                                          o MA organization management coordinated with
                                            the various IRS organizations managing the
                                            business continuity and disaster recovery
                                            planning area to define the roles, responsibilities,
                                            and expectations for each area (see Appendix IV,
                                            Audit Report number 1).
                                          o MITS organization management assigned the
                                            responsibilities for preparing and testing
                                            Computing Center disaster recovery plan
                                            sections to appropriate personnel (see
                                            Appendix IV, Audit Report numbers 3, 8, and 9).
                                          o Detroit Computing Center management
                                            corrected midrange computer disaster recovery
                                            data and documentation backup and offsite
                                            storage problems (see Appendix IV, Audit
                                            Report number 3).
                                          o MITS organization personnel conducted annual
                                            Computing Center mainframe computer system
                                            disaster recovery plan tests in 2004, including
                                            integrated testing of selected interdependent
                                            mainframe computer disaster recovery plans (see
                                            Appendix IV, Audit Report numbers 6 and 9).
                                  While senior management has committed the IRS to
                                  emergency management and preparedness, additional
                                  resources and improved management oversight are needed
                                  to ensure the information systems that support the IRS
                                  Commissioner’s service and enforcement priorities can be
                                  recovered timely if a disaster occurs.
                                  The Federal Information Security Management Act
Significant Disaster Recovery
                                  (FISMA)7 requires each Federal Government agency to
Program Weaknesses Continue to
                                  develop, document, and implement an agency-wide
Be Unresolved
                                  information security program that includes plans and
                                  procedures to ensure continuity of operation for information
                                  systems that support agency operations and assets.
                                  Department of the Treasury Publication 85-01
                                  (TD P 85-01), Treasury Information Technology Security
                                  Program, states bureaus shall develop and maintain detailed


                                  7
                                   E-Government Act of 2002, Pub. L. No. 107-347, Title III,
                                  Section 301, 2002.
                                                                                               Page 4
The Disaster Recovery Program Has Improved, but It Should Be Reported As
  a Material Weakness Due to Limited Resources and Control Weaknesses

                          disaster recovery plans and the associated recovery
                          capability in the event normal operations are disrupted. The
                          IRM requires IRS management to allocate the resources
                          required to support the recovery of critical processes and
                          applications, including computer hardware and software.
                          In addition, the Federal Managers’ Financial Integrity Act of
                          1982 (FMFIA)8 requires each Federal Government agency
                          to conduct annual evaluations of its systems of internal
                          accounting and administrative control. Each agency is also
                          required to prepare an annual report for the Congress and
                          the President that identifies material weaknesses and the
                          agency’s corrective action plans and schedules.
                          Analysis of prior TIGTA audit reports identified
                          recurring disaster recovery program weaknesses
                          We analyzed 11 prior audit reports to identify recurring
                          disaster recovery program weaknesses and concluded IRS
                          management has not effectively addressed the program
                          weaknesses. Details about the audit reports analysis are
                          included in Table 1 (see Appendix IV for a list of the
                          11 audit reports).




                          8
                              31 U.S.C. §§ 1105, 1113, 3512 (2000).
                                                                                Page 5
The Disaster Recovery Program Has Improved, but It Should Be Reported As
  a Material Weakness Due to Limited Resources and Control Weaknesses

                                Table 1: Reported Disaster Recovery Program Weaknesses
                                    Reported Issues




                                                                                                                                                                                                                               Annual disaster recovery tests not
                                                                                       sufficient or cost effectiveness not




                                                                                                                                                             responsibilities not assigned and
                                                                                       Disaster recovery capability not
                                                      placed in production without a
                                                      Modernization systems being




                                                                                                                              Data not protected or easily
                                                      disaster recovery capability




                                                                                                                                                             Disaster recovery roles and



                                                                                                                                                                                                 Disaster recovery plans not



                                                                                                                                                                                                                               conducted or not effective
                                                                                                                                                                                                 complete and accurate
                                                                                                                                                             employees not trained
                                                                                                                              retrievable
                                                                                       assured
                         Audit Reports
                         (Appendix IV lists
                         the audit report titles)
                         1.  The Business
                             Continuity Program                                                                                                                         X
                         2. Protecting Critical
                             Assets                                                                                                 X                                   X
                         3. The Consolidated
                             Midrange Computer                                                     X                                X                                   X                              X                               X
                             Systems
                         4. Software Products
                             to Manage and
                             Control Computer                                                                                                                           X                                                              X
                             Resources
                         5. The Integrated
                             Financial System                   X
                         6. The Master File                                                                                         X                                   X                              X                               X
                         7. The Custodial
                             Accounting Project                 X
                         8. Data
                             Communications                                                        X                                                                    X                              X                               X
                         9. The Mainframe
                             Computer Systems                                                      X                                X                                   X                              X                               X
                         10. The Integrated
                             Financial System                                                                                                                                                                                          X
                         11. The Customer
                             Account Data                       X
                             Engine
                              Number of Reports       3                                             3                                 4                                  7                               4                               6
                          Source: TIGTA audit reports.

                          We also analyzed the status of IRS management’s corrective
                          actions on the recommendations included in the 11 audit
                          reports. Details about the corrective action status analysis
                          are included in Table 2.

                                                                                                                                                                                                                  Page 6
The Disaster Recovery Program Has Improved, but It Should Be Reported As
  a Material Weakness Due to Limited Resources and Control Weaknesses

                                    Table 2: Status of Management’s Corrective Actions
                                      Status (as of




                                                                                                      Open With Extended




                                                                                                                                                Extended Due Date
                                                                                                                           Closed by Original
                                                                                  Open and Original
                                                             Corrective Actions
                                      September 4, 2004)




                                                                                    Date Not Due




                                                                                                                                                   Closed With
                                                                Number of




                                                                                                           Due Date


                                                                                                                               Due Date
                         Audit Reports
                         (Appendix IV lists
                         the audit report titles)
                         1.  The Business Continuity
                                                                    4                                                             4
                             Program
                         2. Protecting Critical Assets               2                 1                                          1
                         3. The Consolidated Midrange
                                                                    9                                      2                      3                  4
                             Computer Systems
                         4. Software Products to Manage
                             and Control Computer                   1                                                             1
                             Resources
                         5. The Integrated Financial
                                                                    1                    1
                             System
                         6. The Master File                         7                    5                 1                      1
                         7. The Custodial Accounting
                                                                    1                    1
                             Project
                         8. Data Communications                     8                    5                                        3
                         9. The Mainframe Computer
                                                                11                  11
                             Systems
                         10. The Integrated Financial
                                                                    0
                             System
                         11. The Customer Account Data
                             Engine
                              Number of Corrective Actions  44      24       3     13      4
                          Source: TIGTA audit reports and Department of the Treasury Joint
                          Audit Management Enterprise System Audit Summary reports.

                          The scheduled completion dates for 27 open corrective
                          actions ranged from September 2004 to January 2007.
                          Management had not responded to a draft report (Audit
                          Report number 11) or provided completion dates for
                          corrective actions to two recommendations as of the date of
                          our analysis. Therefore, the corrective actions will not
                          immediately alleviate the disaster recovery risks.
                          Shrinking budgets have limited management’s efforts to
                          correct disaster recovery problems
                          We determined insufficient resources was one of the causes
                          for recurring disaster recovery problems. The IRS
                                                                                                                                          Page 7
The Disaster Recovery Program Has Improved, but It Should Be Reported As
  a Material Weakness Due to Limited Resources and Control Weaknesses

                          Information Systems (IS) and Business Systems
                          Modernization (BSM) budgets9 have decreased over the last
                          several years. In FY 2003, the IS and BSM budgets
                          provided 7,466 Full-Time Equivalents (FTE)10 and
                          $1.971 billion. However, the President’s FY 2005 IS and
                          BSM budget requests would provide 7,385 FTEs
                          (1.1 percent reduction) and $1.958 billion (0.7 percent
                          reduction, including a 24.4 percent reduction in the BSM
                          budget).
                          Since October 2001, MITS organization management has
                          worked to provide resources to improve disaster recovery
                          capabilities, with limited results. After the terrorist attacks
                          on September 11, 2001, IRS management considered MITS
                          organization requests for $87.6 million for disaster recovery
                          improvements, and the Congress approved $13.5 million for
                          the Master File disaster recovery capability. In the review
                          and approval process, requests for $74.1 million were turned
                          down, including:
                              •   Designing and defining the architecture for the
                                  Competency-Based Organization (CBO) and
                                  enterprise command centers. MITS organization
                                  management cited these two areas as corrective
                                  action for a Master File Disaster Recovery TIGTA
                                  audit recommendation (see Appendix IV, Audit
                                  Report number 6) and is using operations funds to
                                  implement the CBO.
                              •   Upgrading the Enterprise Computing Center (ECC)
                                  mainframe computer disaster recovery capability.
                                  Insufficient ECC processing capacity was a finding
                                  in the Mainframe Computer Disaster Recovery
                                  TIGTA audit report (see Appendix IV, Audit Report
                                  number 9).




                          9
                            The IS appropriation includes all of the automated data processing and
                          telecommunications resources, including labor, hardware and software
                          purchases, and other operations expenses.
                          10
                             A measure of labor hours in which 1 FTE is equal to 8 hours
                          multiplied by the number of compensable days in a particular fiscal
                          year. For FY 2004, 1 FTE was equal to 2,096 staff hours. For FY 2005,
                          1 FTE is equal to 2,088 hours.
                                                                                          Page 8
The Disaster Recovery Program Has Improved, but It Should Be Reported As
  a Material Weakness Due to Limited Resources and Control Weaknesses

                          For FY 2005, Enterprise Operations office management
                          requested $16.7 million for ECC mainframe computer
                          improvements (e.g., Unisys mainframe computer upgrades,
                          Virtual Tape System11 development) that would ensure
                          disaster recovery capabilities. Management categorized the
                          upgrades and improvements as unfunded critical needs, but
                          MITS organization budget cuts have prevented management
                          from reallocating funds to these items. Without the
                          mainframe computer upgrades and improvements,
                          management estimated that, by FY 2006, the ECC could not
                          recover the systems that operate on the Unisys mainframe
                          computers if a disaster occurs.
                          In addition, the Modernization Disaster Recovery Project
                          has not developed and implemented a midrange computer
                          system disaster recovery infrastructure although the
                          Modernized e-File (MeF) system12 is in production and
                          additional midrange computer systems, such as the
                          Integrated Financial System13 and Custodial Accounting
                          Project,14 are scheduled to enter production in FY 2005.
                          The Modernization Disaster Recovery Project did not
                          implement the MeF system disaster recovery capability in
                          FY 2004 because only $3.3 million of the $9.9 million in
                          the budget was provided to develop the architecture. The
                          funds provided did not cover the Project’s priorities. As a
                          result, work stopped on the midrange computer disaster
                          recovery infrastructure. As of September 2004, the
                          remaining funds had not been provided and the
                          infrastructure will be delayed.
                          Finally, MITS organization management advised us
                          personnel trained and responsible for disaster recovery
                          support duties (e.g., preparing and maintaining plans, test


                          11
                             A virtual tape system combines high-speed disk, high-capacity tape,
                          and storage management software to allow quick access to tape volumes
                          located physically on disk but appearing to the computer as conventional
                          tape.
                          12
                             Develops the modernized web-based platform for filing IRS forms
                          electronically.
                          13
                             Provides the IRS better financial budgeting, planning, tracking,
                          reporting, and management.
                          14
                             Uses a data warehousing approach to provide the IRS detailed
                          taxpayer account information to be used for analysis and financial
                          reporting.
                                                                                          Page 9
The Disaster Recovery Program Has Improved, but It Should Be Reported As
  a Material Weakness Due to Limited Resources and Control Weaknesses

                          schedules, etc.) were reassigned to the MA organization in
                          the October 2003 MA organization realignment. However,
                          the MITS organization continues to be responsible for
                          completing the disaster recovery duties. MITS organization
                          management also advised us senior MITS and MA
                          organization managers are working on this issue but, as of
                          August 2004, had not resolved how best to transfer the
                          personnel resources or work.
                          Insufficient management oversight has hampered the
                          identification and resolution of program weaknesses
                          We determined insufficient management oversight was also
                          a cause for recurring disaster recovery problems.
                          MA organization management advised us the FISMA
                          requirements are the focus of their security program
                          oversight efforts. Draft FISMA procedures (issued in
                          August 2004) state TIGTA audit findings will be listed as
                          system weaknesses on the FISMA Plans of Action and
                          Milestones (POA&M). The guidelines suggest management
                          analyze system weaknesses to identify systemic problems
                          and elevate them to the POA&M program weakness level.
                          The POA&M status for each system and program weakness
                          is reported quarterly to the OMB. However, the TIGTA’s
                          FY 2004 FISMA report to the Department of the Treasury15
                          stated the IRS POA&Ms do not contain details sufficient to
                          permit oversight and tracking of security weaknesses. As a
                          result, the current POA&M system weaknesses do not
                          individually identify the TIGTA audit findings and,
                          therefore, could not be analyzed for systemic problems
                          (i.e., recurring issues that might indicate a systemic
                          problem) that should be elevated to the program weakness
                          level. The IRS continues to have significant disaster
                          recovery program issues because it has not effectively
                          implemented management controls, such as FISMA
                          POA&M procedures.
                          The IRS Commissioner’s service and enforcement priorities
                          are heavily dependent on the information systems that
                          support the critical business processes. However,

                          15
                            Treasury Inspector General for Tax Administration Federal
                          Information Security Management Act Report Fiscal Year 2004, dated
                          September 10, 2004.
                                                                                     Page 10
The Disaster Recovery Program Has Improved, but It Should Be Reported As
  a Material Weakness Due to Limited Resources and Control Weaknesses

                          insufficient resources to implement and operate disaster
                          recovery capabilities, and insufficient management
                          oversight to ensure disaster recovery policies and standards
                          are followed, increase the risk the critical systems
                          supporting the Commissioner’s service and enforcement
                          priorities cannot be timely recovered if a disaster occurs.

                          Recommendations

                          To ensure the Commissioner’s service and enforcement
                          priorities can be met, the CIO should:
                          1. Report a disaster recovery program material weakness to
                             the Department of the Treasury as part of the IRS’
                             FMFIA annual evaluation of controls and include the
                             following activities (new and currently underway) in the
                             corrective action plan:
                             •   Obtaining MITS and MA organization and business
                                 unit executive support for the establishment of BRS
                                 and DRS effort due dates and the monitoring and
                                 reporting of the progress and status of the efforts.
                             •   Completing the BRS and DRS efforts and
                                 identifying the MITS organization disaster recovery
                                 requirements (including Modernization
                                 requirements).
                             •   Conducting a gap analysis to identify the difference
                                 between the MITS organization disaster recovery
                                 requirements and current capabilities.
                             •   Coordinating with IRS, Department of the Treasury,
                                 and OMB management to obtain the resources
                                 needed to correct the material weakness.
                          Management’s Response: IRS management will declare the
                          disaster recovery program a material weakness. IRS
                          management responded the IRS could recover all vital data
                          for the most mission critical information technology
                          systems, including the Master File and the Customer




                                                                               Page 11
The Disaster Recovery Program Has Improved, but It Should Be Reported As
  a Material Weakness Due to Limited Resources and Control Weaknesses

                          Account Data Engine (CADE).16 They are committed to
                          increasing their disaster recovery capabilities based on
                          available funding and an evaluation of cost and risk factors.
                          The MA organization is responsible for coordinating the
                          development of an IRS-wide business resumption strategy.
                          The MITS organization has identified its current disaster
                          recovery and business resumption strategies, including both
                          data recovery point and recovery time objectives, for all
                          major systems. A listing of the crucial business processes
                          required to continue fulfilling IRS tax administration
                          responsibilities has been identified and prioritized. Further
                          analysis of this prioritization will include mapping the
                          critical business processes to the specific computing system
                          major applications and general supporting systems that
                          directly support those IRS critical business processes, along
                          with conducting a gap analysis to identify inadequate
                          disaster recovery capabilities. In addition, IRS management
                          will coordinate with the Department of the Treasury and the
                          OMB to request the funding needed to support the business
                          resumption and disaster recovery requirements.
                          2. Work with the Chief, MA, to implement FISMA
                             POA&M procedures to analyze system weaknesses for
                             systemic problems and elevate them as program-level
                             weaknesses.
                          Management’s Response: IRS senior leadership established
                          an executive working group to identify roles and
                          responsibilities and to provide the leadership and guidance
                          needed to implement FISMA POA&M procedures.




                          16
                            The CADE is the foundation for managing taxpayer accounts in the
                          IRS modernization plan. The CADE will consist of databases and
                          related applications to replace the IRS’ existing Master File processing
                          systems.




                                                                                          Page 12
       The Disaster Recovery Program Has Improved, but It Should Be Reported As
         a Material Weakness Due to Limited Resources and Control Weaknesses

                                                                                       Appendix I


                      Detailed Objective, Scope, and Methodology

The objective of this review was to provide an overall assessment of the Internal Revenue
Service’s (IRS) disaster recovery program. To accomplish this objective, we:
I.     Reviewed guidance documents and interviewed Modernization and Information
       Technology Services (MITS) and Mission Assurance (MA) organization management
       officials to determine whether policies and procedures clearly defined the responsibilities
       for ensuring the disaster recovery program is effective.
       A.     Reviewed Office of Management and Budget, Department of the Treasury, and
              IRS policies and procedures documents and prior Treasury Inspector General for
              Tax Administration (TIGTA) audits to document IRS management’s disaster
              recovery program management and oversight roles and responsibilities.
       B.     Interviewed MITS and MA organization managers about their disaster recovery
              oversight roles and responsibilities and determined whether the roles and
              responsibilities were clearly defined and effectively performed.
II.    Reviewed 11 previously issued TIGTA audit reports on the IRS’ disaster recovery
       program activities after the terrorist attacks on September 11, 2001, and the status of
       management’s corrective actions to identify trends in the findings and recommendations.
       A.     Reviewed 11 TIGTA audit reports and the Joint Audit Management Enterprise
              System Corrective Action Form status reports for 44 recommendations as of
              September 4, 2004, to identify trends.
              1. For the audits listed in Appendix IV, prepared a schedule containing the
                 findings, recommendations, management responses and original due dates,
                 and status of the corrective actions, including revised due dates and status
                 descriptions.
              2. Evaluated the schedule prepared in Step II.A.1. to identify trends.
       B.     Reviewed the trends identified in Step II.A.2. to determine whether corrective
              actions implemented on earlier recommendations were not effective and had an
              impact on later findings.
III.   Determined the higher-level cause(s) for identified trends.
       A.     Interviewed MITS and MA organization managers to obtain their explanations for
              the trends and determined whether other factors resulted in the corrective actions
              not being effective or implemented.


                                                                                            Page 13
The Disaster Recovery Program Has Improved, but It Should Be Reported As
  a Material Weakness Due to Limited Resources and Control Weaknesses

B.    Reviewed documentation supporting the managers’ explanations of other factors
      that resulted in the corrective actions not being effective or implemented and
      determined the causes of these factors.




                                                                              Page 14
       The Disaster Recovery Program Has Improved, but It Should Be Reported As
         a Material Weakness Due to Limited Resources and Control Weaknesses

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Frank Greene, Lead Auditor
Michael Garcia, Senior Auditor
Kim McManis, Auditor




                                                                                         Page 15
      The Disaster Recovery Program Has Improved, but It Should Be Reported As
        a Material Weakness Due to Limited Resources and Control Weaknesses

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Acting Director, Assurance Programs OS:MA:AP
Director, Operational Assurance OS:MA:O
Director, Stakeholder Management OS:CIO:SM
Director, Enterprise Operations OS:CIO:I:EO
Director, Detroit Computing Center OS:CIO:I:EO:DC
Director, Enterprise Computing Center OS:CIO:I:EO:MC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
    Chief, Mission Assurance OS:MA
    Associate Chief Information Officer, Information Technology Services OS:CIO:I
    Director, Enterprise Operations OS:CIO:I:EO
    Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                    Page 16
       The Disaster Recovery Program Has Improved, but It Should Be Reported As
         a Material Weakness Due to Limited Resources and Control Weaknesses

                                                                               Appendix IV


                      Previously Issued Audit Reports Reviewed

The 11 Treasury Inspector General for Tax Administration Audit Reports reviewed for the
overall assessment of the disaster recovery program are:
1.   The Internal Revenue Service Has Made Substantial Progress in Its Business Continuity
     Program, but Continued Efforts Are Needed (Reference Number 2003-20-026, dated
     December 2002).
2.   Progress Has Been Made in Protecting Critical Assets (Reference Number 2003-20-047,
     dated February 2003).
3.   Improvements Are Needed to Effectively Implement the Disaster Recovery Strategy for
     Consolidated Mid-Range Computer Systems (Reference Number 2003-20-084, dated
     April 2003).
4.   The Implementation of Software Products to Manage and Control Computer Resources
     Needs Improvement (Reference Number 2003-20-151, dated July 2003).
5.   Risks Are Mounting as the Integrated Financial System Project Team Strives to Meet an
     Aggressive Implementation Date (Reference Number 2004-20-001, dated October 2003).
6.   The Master File Disaster Recovery Exercise Was Completed, but Significant
     Vulnerabilities Should Be Addressed (Reference Number 2004-20-053, dated March 2004).
7.   The Custodial Accounting Project Team Is Making Progress; However, Further Actions
     Should Be Taken to Increase the Likelihood of a Successful Implementation (Reference
     Number 2004-20-061, dated March 2004).
8.   Additional Disaster Recovery Planning, Testing, and Training Are Needed for Data
     Communications (Reference Number 2004-20-079, dated April 2004).
9.   Mainframe Computer Disaster Recovery Risks Are Increased Due to Insufficient Computer
     Capacity and Testing (Reference Number 2004-20-142, dated August 2004).
10. The Integrated Financial System Project Team Needs to Resolve Transition Planning and
    Testing Issues to Increase the Chances of a Successful Deployment (Reference
    Number 2004-20-147, dated August 2004).
11. To Ensure the Customer Account Data Engine’s Success, Prescribed Management
    Practices Need to Be Followed (Reference Number 2005-20-005, dated November 2004).




                                                                                        Page 17
The Disaster Recovery Program Has Improved, but It Should Be Reported As
  a Material Weakness Due to Limited Resources and Control Weaknesses

                                                                 Appendix V


            Management’s Response to the Draft Report




                                                                       Page 18
The Disaster Recovery Program Has Improved, but It Should Be Reported As
  a Material Weakness Due to Limited Resources and Control Weaknesses




                                                                       Page 19
The Disaster Recovery Program Has Improved, but It Should Be Reported As
  a Material Weakness Due to Limited Resources and Control Weaknesses




                                                                       Page 20
The Disaster Recovery Program Has Improved, but It Should Be Reported As
  a Material Weakness Due to Limited Resources and Control Weaknesses




                                                                       Page 21
The Disaster Recovery Program Has Improved, but It Should Be Reported As
  a Material Weakness Due to Limited Resources and Control Weaknesses




                                                                       Page 22
The Disaster Recovery Program Has Improved, but It Should Be Reported As
  a Material Weakness Due to Limited Resources and Control Weaknesses




                                                                       Page 23
